              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Review of the Department of Energy’s
Canine Program at Selected Sites




DOE/IG-0755                              January 2007
REVIEW OF THE DEPARTMENT OF ENERGY’S CANINE
PROGRAM AT SELECTED SITES


TABLE OF
CONTENTS


              OVERVIEW

              Introduction and Objective      1

              Observations and Conclusions    2


              DETAILS OF FINDINGS

              Background                      3

              Explosives Detection            3

              Suspect Apprehension            4

              Vulnerabilities                 4


              RECOMMENDATIONS                 5


              MANAGEMENT COMMENTS             6


              INSPECTOR COMMENTS              6


              APPENDICES

              A. Scope and Methodology        9

              B. Management Comments          10
Overview

INTRODUCTION    The Office of Inspector General (OIG) initiated an inspection of
AND OBJECTIVE   the Canine Program at selected sites within the Department of
                Energy (Department). In the current threat environment, where
                explosives are a terrorist’s weapon of choice, the Department’s
                Canine Program is an essential component in the effort to identify
                and deter potential threats to facilities and personnel.

                The Department’s Canine Program includes Dual Purpose and
                Single Purpose Canine Teams. Each team consists of a handler
                and a canine. The Dual Purpose Canine Teams are used for
                explosives detection, as well as patrol duties, such as suspect
                apprehension and searches. The Single Purpose Canine Teams are
                used solely for explosives detection. Depending on specific
                mission needs at a site, the canine teams are trained and certified in
                explosives detection, and/or suspect apprehension and search
                techniques. Some canine teams assigned to certain Department
                sites also support local and Federal law enforcement activities. For
                example, canine teams at one site we visited were used recently to
                clear local schools after bomb threats were received and for
                explosives detection prior to a high-level visit by a dignitary.

                The objective of our inspection was to determine whether the
                Department’s Canine Program provides an adequate level of
                protection for Department personnel and facilities. The
                Department does not have a Department-wide policy regarding the
                Canine Program. Therefore, we used the criteria developed by
                each Department site as the basis for our review at that site. At our
                request, the contractor at each of the three sites we visited provided
                a demonstration and operational test involving the canine teams.
                At two of the sites, Dual Purpose Canine Teams demonstrated their
                abilities in suspect apprehension and search techniques, and, in
                explosives detection. At the third site, Single Purpose Canine
                Teams demonstrated their abilities in explosives detection.




Page 1                                   Review of the Department of Energy’s
                                         Canine Program at Selected Sites
OBSERVATIONS AND   We determined that, at the sites we visited, the Department’s
CONCLUSIONS        Canine Program does not provide an adequate level of protection
                   for Department personnel and facilities. Specifically, we found
                   that:

                      •   Half of the canine teams we observed failed the explosive
                          detection portion of the operational evaluation.

                      •   Each of the canines we observed in the suspect
                          apprehension demonstrations failed to respond to at least
                          one of the handler’s commands.

                      •   The canines were not receiving the minimum hours of
                          weekly training required for explosives detection.




Page 2                                             Observations and Conclusions
Details of Findings

BACKGROUND            The same contractor managed the canine programs at the three
                      sites we visited. Canines undergo periodic testing to ensure the
                      reliability of their detection and apprehension skills. A two-part
                      process is used by the contractor to evaluate the canines’ detection
                      effectiveness: Odor Recognition Proficiency Test (ORPT) and
                      operational evaluations. According to the contractor’s own
                      criteria, canines must successfully perform both evaluations to be
                      considered effective.

                      The ORPT is used at each site to test the canines’ odor recognition
                      capabilities for ten explosives, including dynamite, C-4, and black
                      powder. The ORPT is based on a Bureau of Alcohol, Tobacco,
                      Firearms, and Explosives (ATF) standard, since ATF is recognized
                      by Congress as a benchmark for effective canine explosives
                      detection. Both the ATF standard and the contractor’s test require
                      the canines to successfully locate all ten explosive odors.
                      According to the ATF standard and the contractor’s own criteria,
                      the canine must receive a failing score if the canine fails to respond
                      to any one of the ten explosive odors used in the test. Six of the
                      ten explosive odors are mandated by the standards, while the
                      remaining four explosive odors are elective. The ORPT allows the
                      canine team two opportunities to recognize an odor.

                      The second explosive detection evaluation involves the operational
                      testing of the canine teams. This test is intended to evaluate the
                      canine and handler as a team and their ability to perform in an
                      environment that most closely reflects their day-to-day areas of
                      security responsibilities. In contrast to the ORPT, the U.S. Police
                      Canine Association (USPCA) standards allow the canine team only
                      one opportunity to locate the explosive aid. We observed this
                      latter testing during our inspection.

EXPLOSIVES            Of the eight canine teams we observed at the three Department
DETECTION             sites, four canines failed to detect one or more explosive odors
                      used in the operational demonstration. In addition, we
                      obtained information from the contractor which indicated that
                      during their recent annual certification, four canines failed in
                      their first attempt to detect explosive odors required by the
                      contractor’s ORPT. Contractor officials told us that the four
                      canine teams that failed the operational explosive detection
                      demonstrations that we observed would be scheduled for
                      remedial training.

                      The contractor’s manual at two of the Department sites
                      requires that each canine receive a minimum of four hours of



Page 3                                                               Details of Findings
                  explosive detection training weekly. We reviewed the training
                  records at those two sites and determined that during a recent
                  five-month period, the average weekly explosives detection
                  training for the canines ranged from 1 ½ hours to 3 ¾ hours.
                  Further, we were told that four of the eight canine teams rarely
                  trained on four of the six mandatory explosive odors required
                  by the ATF and contractor standards.

                  In our view, the failure of half the canines we observed to detect
                  one or more explosive odors in a demonstration conducted by the
                  contractor raises serious concerns about the ability of the
                  Department’s Canine Program to adequately protect the
                  Department’s sites and personnel.

SUSPECT           At two Department sites, we observed suspect apprehension
APPREHENSION      demonstrations involving four canine teams. Each of the canines
                  we observed in the suspect apprehension demonstrations failed to
                  respond to at least one of the handler’s commands during the
                  demonstrations. During the demonstrations, we observed instances
                  where the simulated adversary (decoy) complied with the handlers’
                  instruction to stop, yet the canine bit the decoy without being
                  commanded by the handler to do so, and failed to return to the
                  handler upon command. We also observed that some of the
                  canines failed to release the decoy at the handlers’ command and,
                  in some cases, had to be choked by the handlers to release the
                  decoy.

VULNERABILITIES   The results of our review to date confirm that canine performance
                  at the sites included in our review did not meet expectations. This
                  created, in our judgment, an unacceptable vulnerability for the
                  security and safety of Departmental operations. Because of the
                  sensitivity of this matter, the sites involved have not been
                  identified in this report, but instead, the site locations have been
                  communicated to management. This report is directed to senior
                  management responsible for the facilities involved. Because of the
                  importance of the Canine Program as part of the Department’s
                  overall security effort, we have included a number of
                  recommendations for corrective action.




Page 4                                                          Details of Findings
RECOMMENDATIONS   We recommend that the Assistant Secretary for Fossil Energy:

                  1. Take immediate action to ensure the Canine Program at
                     [specified sites] provides an adequate level of protection for
                     Department personnel and facilities in accordance with
                     applicable Federal standards.

                  We also recommend that the Chief, Office of Health, Safety
                  and Security:

                  2. Take immediate action to ensure the Canine Program at
                     [specified site] provides an adequate level of protection for
                     Department personnel and facilities in accordance with
                     applicable Federal standards.

                  3. Review the Canine Programs at Department sites across the
                     complex to ensure they provide an adequate level of
                     protection for Department personnel and facilities.

                  4. Develop policies and procedures for the Department
                     Canine Program to establish minimum training and testing
                     requirements for canine teams at Department facilities.




Page 5                                                          Recommendations
MANAGEMENT   In comments on a draft of this report, the Office of Fossil Energy
COMMENTS     (FE) and the Office of Health, Safety and Security (HS) concurred
             with the recommendations and agreed to take corrective action.
             During the management response process, FE was given the
             opportunity to revise its initial response. As part of its corrective
             action plan, FE charged responsible contractor officials with
             improving detection and response training, qualification, and
             certification of all its canine teams. In comments regarding its
             security program, FE emphasized that the “…canine program
             constitutes one element of a multi-layered security program that, as
             a whole, meets DOE requirements for an adequate level of
             protection for the safety and security of DOE personnel and
             facilities.”

             In its comments, HS indicated that action had been initiated to
             benchmark the Department’s Canine Program with other Federal
             agencies and to develop Department-wide policy. HS also noted
             that the evaluation methodology used by its contractors conformed
             to that of the USPCA and that the OIG had limited the canine
             teams to only one opportunity to detect odors, contrary to the
             USPCA evaluation methodology. Finally, HS stated that
             numerous individuals in the immediate presence of the canine team
             distracted the team from its search. According to HS, these issues
             collectively may have biased the results of our inspection.

             Management comments are included in Appendix B of this report.


INSPECTOR    Regarding FE’s comments on its security program, we understand
COMMENTS     that sites employ other layers in their security program in addition
             to the canine teams. Although those other security layers were not
             part of this review, it is well established that the canine teams offer
             a unique capability. In April 2005, FE’s Canine Program was also
             evaluated by a Department of Defense (DOD) canine expert. That
             report noted “…none of the eight teams were able to find all of the
             low explosive odors hidden on the vehicles or in the building. Five
             of the teams missed all of the explosive odors hidden in the
             scenarios.” Furthermore, the report stated that only two canine
             teams would pass “…a DOD equivalent certification in patrol
             work.” As with our report, the DOD report revealed that the
             canines’ performance created an unacceptable vulnerability for the
             Department’s operations.

             Furthermore, FE’s canine teams have been used to clear local
             schools after bomb threats, and for explosives detection prior to a



Page 6                                Management and Inspector Comments
         high-level visit by a dignitary. In contrast to the FE sites, schools
         may not have sophisticated, multi-layered security systems and
         must rely exclusively on the canine team’s ability to search for
         potential explosives. In today’s threat environment, one failure by
         the Department canines to detect explosives at a school, a high-
         level dignitary visit, or Department site could have catastrophic
         consequences.

         Regarding HS’s comments about our testing methods, at our
         request, the contractor provided operational demonstrations of the
         Explosives Detection Teams. We relied on the contractor’s own
         criteria, as well as established criteria by relevant Federal agencies
         to reach our conclusions on the canines’ effectiveness. According
         to HS, because the OIG limited the canine teams to only one
         opportunity to detect odors during the demonstrations, we failed to
         follow the USPCA conforming evaluation methodology used by its
         contractor. However, according to USPCA criterion and the
         Director of the USPCA, the canine team is allowed only one
         chance to locate the aid during an operational evaluation. We
         reiterate that for operational evaluations, USPCA Certification
         Rules and Regulations require that a canine team be given only one
         chance to locate all the hidden explosive aids.

         With respect to immediate re-testing of the dogs’ failure to alert,
         the 2006-2007 USPCA Certification Rules and Regulations,
         General Rules and Definitions Governing Certifications of
         Detector Canines, states “Teams failing to successfully certify will
         not immediately be given a second chance. Multiple tests of the
         same team will not be conducted. The team has to undergo a
         period of retraining documenting successful performance before
         any attempt at re-certification.” Furthermore, “Explosive
         certification requires a 100% find, all devices must be found.”

         We contacted the National Executive Director, USPCA, to obtain
         his expert opinion on the concerns expressed by HS regarding the
         testing methodology and interpretations that the OIG used in its
         evaluation of the canine teams. The Director stated that the
         USPCA requires a true 100% find and that the team is given only
         one chance to locate the aid. Furthermore, continual “Retesting
         until they locate all the aids is not done…” The Director explained
         that if the team fails to find all of the aids during the first attempt,
         the team must undergo a period of documented successful
         retraining. Then “…the teams can attempt re-certification but that
         attempt must be done on another day and the evaluation must be
         completed in its entirety.” The Director added that the USPCA




Page 7                                                  Inspector Comments
         performance expectation requirement is extremely high due to the
         nature of the work performed by explosives detector dog teams.

         HS also expressed concern that the presence of numerous
         individuals in the immediate presence of the canine team distracted
         the team from its search. The contractor controlled the
         environment during all the tests, and raised no objections, except
         during one instance when the contractor believed there were too
         many OIG observers and asked us to step back to watch the test.
         We complied with the contractor’s request. At no time during any
         of the testing did the contractor state that our presence would
         nullify the test results. In addition to the operational
         demonstrations that were provided, we observed some of those
         same canine teams performing their official duties in areas where
         large numbers of individuals congregate and pass in close
         proximity to the canine teams. More importantly, during an actual
         event, or its immediate aftermath, the canine teams would not
         function in a sterile environment. Therefore, we disagree with
         management’s assertion that the presence of additional individuals
         may distract the team from its search.




Page 8                                              Inspector Comments
Appendix A

SCOPE AND     The OIG initiated an inspection of the Canine Program
METHODOLOGY   at three Department sites. At each site, we observed demonstrations
              of the canines’ abilities. We identified and reviewed applicable
              Federal and Department regulations. The OIG interviewed
              Department and contractor officials, and reviewed key documents
              applicable to the Canine Program.

              Also, pursuant to the “Government Performance and Results Act of
              1993,” we reviewed site performance measurements processes
              related to the Canine Program.

              This inspection was conducted in accordance with “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 9                                               Scope and Methodology
Appendix B




Page 10      Management Comments
Appendix B         (continued)




Page 11      Management Comments
Appendix B         (continued)




Page 12      Management Comments
Appendix B         (continued)




Page 13      Management Comments
Appendix B         (continued)




Page 14      Management Comments
Appendix B         (continued)




Page 15      Management Comments
Appendix B         (continued)




Page 16      Management Comments
                                                                    IG Report No. DOE/IG-0755

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
